                                         Office of Inspector General
                                     Atlanta Field Office - Audit Division
                                          3003 Chamblee Tucker Rd
                                              Atlanta, GA 30341


                                         March 29, 2004




TO:             Kenneth 0 . Burris, Jr.


FROM:
                ~ielO
                    b ffice ~ i r e c t o ?

SUBJECT:        Kentucky Transportation Cabinet
                FEMA Disaster No. 1163-DR-KY
                Audit Report DA-22-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
Kentucky Transportation Cabinet, Frankfort, Kentucky. The objective of the audit was to
determine whether the Transportation Cabinet accounted for and expended FE
in accordance with federal regulations and FEMA guidelines.

The Transportation Cabinet received an award of $5.5 million from the Kentucky
Department of Military Affairs, Division of Disaster Emergency Services, a FEMA
grantee, to provide emergency protective measures and repair facilities damaged as a
result of floods in March 1997. The award provided 75 percent FEMA funding for 9 large
projects and 383 small projects'. The audit covered the period March 1997 to February
2003. During this period, the Transportation Cabinet claimed $5,52 1,396 (see Exhibit A)
and received $4,141,049 of FEMA funds.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the Transportation Cabinet's accounting records, a jud ental sample of
expenditures, and other auditing procedures considered necessary under the
circumstances.




I
 According to FEMA regulations, a large project costs $46,000 or more and a small project costs less than
$46,000.
                                RESULTS OF AUDIT 


The Transportation Cabinet's claim included questioned costs of $162,098 (FEMA share
$121,574) resulting from duplicate charges, permanent repairs to Federal-Aid roads and
unauthorized charges.

A. Duplicate Charges. The Transportation Cabinet claimed $1 16,552 under Project
   77306 for force account labor and equipment usage. However, the OIG determined
   that FEMA also funded these costs under large Project 73270 and under 64 small
   projects. Accordingly, the OIG questions the duplicate claim of $1 16,552 under the
   one large project ($20,042) and 64 small projects ($96,5 10 see Exhibit B).

B. Assistance on Federal Aid-Roads. The Transportation Cabinet was awarded $41,033
   under 6 small projects for the repair of roads damaged during the disaster. However,
   the OIG determined that the costs charged to the projects were for permanent repairs
   to roads under the authority of the Federal Highway Administration. Federal
   regulation (44 CFR 206.226) prohibits FEMA financial assistance when another
   Federal agency has specific authority to restore facilities damaged or destroyed by a
   disaster. Accordingly, the OIG questions the $41,033 awarded and claimed under the
   6 projects, as follows:

               Project        Amount        Amount          Amount
               Number        Awarded        Claimed        Questioned
               10060         $ 5,768        $ 5,768         $5,768
               10069           2,118          2,118           2,118
               72517           2,038          2,038           2,038
               73414          26,723         26,723          26,723
               99779            1,075         1,075           1,075
               99974           3,311          3,311           3,3 11
                             $4 1.033       $41.033         $41,033

C. Unauthorized Char~es.The Transpodation Cabinet's claim included $ 4 3 13 of
   unauthorized or pre-disaster project costs. The Transportation Cabinet claimed $3,650
   for road repairs in Marion County under rojects 08808 ($1,256) and 73284 ($2,394).
   However, the FEMA disaster declaration did not authorize Public Assistance for
   Marion County. Federal regulation (OMB Circular A-87, Attachment A, C. 1)
   requires that cost to be allowable under a federal program, it must be authorized and
   allocable to the program. Accordingly, the OIG questions these charges of,$3,650.
   Also, the Transportation Cabinet claimed $863 for force account overtime labor
   ($656) and equipment usage ($207) under Project 0386. I-Iowever, the OIG
   determined that these costs were incurred two months prior the disaster. Federal
   regulation (44 CFR 206.223) states that to be eligible for FEMA funding, an item of
   work must be required as the result of the disaster. Accordingly, the OIG questions
   these charges of $863.

                                RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $162,098 of questioned costs.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

The results of the audit were discussed with FEMA officials on November 2 1,2003, and
with grantee and Transportation Cabinet officials on January 30,2004. Transportation
Cabinet officials concurred with the findings.

Please advise the Atlanta Field Offtce-Audit Division by May 28, 2004, of the actions
taken to implement the OIG recommendation. Should you have any questions concerning
this report, please contact David Kimble or me at (770) 220-5242.
                                                                     Exhibit A
                    Kentucky Transportation Cabinet
                    FEMA Disaster No. 1163-DR-KY
                Schedule of Claimed and Questioned Costs
                              Large Pro-iects


Project         Amount              Amount                 Amount
Number          Awarded             Claimed                Questioned

74602       $ 230,825
77306        2,37 1,159
00380           63,943
00382          112,011
00386           66,483                                     $      863
00404           69,614
722 15         131,666
73270           16,335                                         20,042
78614          113.946
Sub-Total   $3,205,982                                     $ 20,905


                              Small Projects
08808       $     1.256           $     1,256              $ 1,256
10060             5,768                 5,768                   5,768
10069             2,118                 2,118                   2,118
725 17            2,038                 2,038                   2,038
73284             2,394                 2,394                   2,394
73414           26,723                 26,723                  26,723
99779             1,075                 1,075                   1,075
99974             3,311                 3,3 11                  3,3 11
Exhibit B      439,296               439,296                   96,5 10
All Other    l,83 1,435             1,831,435
Sub-Total   $2.3 15,414           $2,315,414               $141,193

Totals                                                     $162.098
                                                                    Exhibit B
                                                                 (Page 1 of 2)
             Kentuekv Transportation Cabinet
               FEMA-Disaster 1163-DR-KY
          Duplicated Charges Under Small Pro-iects

Project                Amount       Amount
l3!u&Z                 Awacded      CLsfmed          Totals
 85                $    4,087      $ 4,087                  427
  86                    4,129       4,129                   390
 40 1                   4,823       4,823                   130
 408                    3,810       3,810                   216
 410                    18,606      18,606                2,268
 412                     1,012       1,012                    92
 413                    2,773       2,773                   581
 414                    2,558       2,558                   581
 416                    3,303       3,303                   504
 580                    6,601       6,6O 1                1,310
 58 1                   8.222        8,222                  428
 582                    4,924       4,924                    379
 583                     1,585       1,585                   369
 588                    13,471      13,471                3,066
 589                     1,293       1,293                   373
 594                     7,354       7,354                 1,411
 595                     9,108       9,108                 1,906
 596                     1,914       1,914                   27 1
 597                    11,789      11,789                   430
 598                     1,100       1,100                   45 1
  599                    1,231       1,231                   325
 8802                    1,162       1,162                 1,120
 8805                    1,011        1.01 1                  123
 8809                    4,633       4,633                 1,109
 8810                    5.1 16      5.1 16                  302
 8812                     1,013       1,013                   121
 8813                    8,121        8,121                    67
 8814                    7,980        7,980                    43
 9065                    9,296        9,296                1,510
 9068                     3,221       3,221                   660
 9076                    20,984      20,984                   121
 9836                    30,306      30,306                2,863
 9841                    11,074      11,074                2,593
 9842                     3,232       3,232                   269
 9843                     2,314       2,314                   250
 9844                     8,768       8,768                2,483
 9845                     9,152       9,152                 1,776
 9846                    18,509      18,509                 5,168
 9847                     4,696       4,696                   396
 9848                    38,012      38,012               1,9329
 10062                    3,806       3,806                   963
 10063                    8,491       8,49 1                1,689
 10064                    6,364       6,364                 3,346
 10071                    3,819       3,819                 1,702
 10074                    7,738       7,738                 5,120
 10077                     1,099       1,099                   154   '

 10078                   24,299      24,299                 6,039
 10079                    2,128        2,128                   646
 63927                    2,898        2,898                    59
 63928                     1,764       1,764                   504
                                                                              Exhibit B
                                                                           (Page 2 of 2)
                     Kentucky Transportation Cabinet
                       FEMA-Disaster 1163-DR-KY
                  Duplicated Charges Under Small Proiects
                               [Continued)
        Project             Amount         Amount
        Number              Awarded        Claimed          Totals
         63929                 5,968         5,968               2,903
         7 1704               3,430          3,430                1,898
         73266                3,067          3,067                  366
         73269                7,905          7,905                5,800
         73275                7,273          7,273                  787
         73276                6,783          6,783                1,922
         73279                 1,717         1,717                  49 1
         73300                 1,386         1,386                  272
         73556                16,063        16,063                2,220
         786 17                1,162         1,162                  455
         786 19                3,550         3,550                  740
         78620                 2,435         2,435                  485
         7562 1                2,68 1        2,681                  502
         78622               11.177         11.177                1.236
Total                       $439.296      $419.294             $=?LZAQ
